OIG Investigative Reports, Eight Individuals Indicted and Aressted for Identity Theft
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
U.S. Department of Justice
Rosa Emilia Rodríguez-Vélez
United States Attorney
District of Puerto Rico
Torre-Chardón Bldg., Suite 1201     (787) 766-5656
350 C. Chardón Avenue
Hata Rey, Puerto Rico 00918
FOR IMMEDIATE RELEASE
Date: March 31, 2009
Contact: US Attorney’s Office
Lymarie V. Llovet-Ayala
Public Affairs Specialist
787-282-1820 / 787-340-1835
EIGHT INDIVIDUALS INDICTED AND ARRESTED FOR IDENTITY THEFT
SAN JUAN, P,R. - Yesterday, a grand jury returned five indictments, one of which remains
sealed, charging seven (7) men and one (1) woman with identity theft, aggravated identity theft and
Social Security Fraud. Law enforcement agencies arrested these individuals this morning,
announced U.S. Attorney for the District of Pueno Rico, Rosa Emilia Rodríguez-Vélez. The
investigation of this case involved the recent wave of burglaries and thefts of "identification
documents" and "mean, of identification" from approximately fifty (50) of Puerto Rico's public
schools.
Since 2007, Puerto Rico’s public schools became the target of thieves looking to steal
identification documents belonging to United States citizens. The types ofdocuments stolen include
originals as well as copies of birth certificates and social security cards. The purpose of stealing
these documents was to sell the information to buyers, including buyers in the states of Texas,
Alaska and California, interested in using the identities of United States citizens.
The indictments allege that since April of 2008, the defendants Fnu Lnu, aka "Daniel,"
Casimiro Nunez-Polanco, aka "Pupi," Orlando Negron-Colón, Miguel Negrón-Alvarado, Francisco
Miranda-Guzmán, Ovel Cruz-Pérez, aka Obelito," aka "Jancarlo Norberta-Santos", aka "Pedro Alayon," aka "Carlos Cruz-
Larroig," and Yanilka Jiménez-González, aka "Stephanie Pena-Medina,"
aka "Francisca Villaman;" have been involved in the unlawful transfer and possession of social
security cards, birth certificates, passports, copies of social security cards and birth certificates, as
well as fake Puerto Rico drivers licenses.
"The U.S. Attorney’s Office is committed to protecting the privacy and identity of the
citizens of Puerto Rico. The joint efforts of the federal and local law enforcement agencies
participating in this investigation lead to the arrests of these individuals, some of whom possessed
stolen records from Puerto Rico public schools and subsequently sold these identification
documents," said United States Attorney Rosa Emilia Rodríguez-Vélez.
"Identity theft is now a worldwide problem, people must take the necessary steps to safeguard
their identity," said Luis Fraticelli, Special Agent in Charge ofthe FBI-San Juan Field Office. "Here
are just a few security tips: be careful when providing personal infonnation over the telephone or the
internet; shred personal documents, such as credit card statements, utility bills, etc.; order a free copy
of your credit report once a year; and only carry essential identification cards. "Ifyou are a victim
of identity theft, please call the FBI at (787) 754-6000 or 1-877-324-7577 (1-877-FBI-SJPR)."
"Your identity in the United States is not for sale" said Manuel Oyola Torres, special agent
in charge of ICE's Office of Investigations in Puerto Rico. "The arrests today ofthese individuals
reflect the continued law enforcement efforts by ICE and our law enforcement partners to dismantle
organizations and prosecute individuals who perpetrate fraud that put our nation at risk. We are
committed to ensure that our nation's security is not breached in this manner."
Special Agent in Charge Edward J. Ryan, Social Security Administration, Office of the
Inspector General said: "The Office of the Inspector General is the law enforcement arm of the Social
Security Administration. This Office is responsible for the protection of SSA programs from fraud,
waste and abuse as well as to preserve the integrity ofthe Social Security number. This cooperative
investigation illustrates our Office's dedication to the aggressive pursuit of any criminal enterprise
which engages in the intentional trafficking and misuse of the Social Security number. We will
continue our strides with other law enforcement to prevent the misuse of Social Security numbers
for personal financial gain."
"The mission of the U.S. Postal Inspection Service, is to protect the U.S. Postal Service,
secure the nation's mail system and ensure public trust in the mail," said Eliezer Julián, Acting
Assistant Inspector in Charge of the U.S. Postal Inspection Service, San Juan Field Office. "Postal
Inspectors assigned to the San Juan Field Office are charged with this task and ensure the island mail
system is one of the most secure means of transmitting personal information."
"The Diplomatic Security Service is firmly committed to working with our law enforcement
partners to investigate visa, passport, and other document fraud, and to bring to justice those who
commit these crimes," said Maurice A. Brungardt, Resident Agent In Charge of Diplomatic
Security'S San Juan Resident Office. "Such crimes can be related to criminal or terrorist
organizations and pose a potential threat to the national security of the United States."
"This case highlights the diligent work of this team and its dogged pursuit of those who stole
the identities of the most innocent of victims - Puerto Rico's school children," said Mary
Mitchelson, Acting Inspector General ofthe U.S. Department of Education. "We're proud to be a
part of this effort."
If convicted, the defendants face a maximum of 15 years imprisonment, three years of
supervised release, with fine s of up to $250,000 dollars.
This joint investigation was conducted by the Federal Bureau of Investigation. U.S. Postal
Inspection Service, u.S. Secret Service, Immigration and Customs Enforcement, the U.S.
Department of Education-Office of'Inspectcr Generel (OIG), the U.S. Social Security Administration
OIG, the U.S. Diplomatic Security Services and the Police of Puerto Rico. The case is being
prosecuted by Assistant U.S. Attorneys Julia Díaz-Rex and Marshal Morgan.
Criminal indictments are only charges and not evidence of guilt. A defendant is presumed
to be innocent until and unless proven guilty.
###
Printable view
Share this page
Last Modified: 04/01/2009
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov